CERTIFICATE OF SERVICE
I, John M. Custin hereby certify that 1 unbound copy of the foregoing Petition for Writ of
Certiorari in Custin v. Wirths et al., were sent via USPS Delivery confirmation to the U.S.
Supreme Court, and 1 bound copy was sent via USPS Priority Mail and email to the
following party listed below, this [July 28lh, 2021] in accordance with the^November 13th
2020 COVID 19 modifications to the deadline for filing and paper filing requirements.

(tracking # (

qsossioz nw ixo? 3som\

and email to the following party listed below, this [July 28th, 2021]:
Name of Respondent: Rimma Razhba D. A.G.
Title:
Deputy Attorney General
Address:
Office of the Attorney General NJ
Department of Law & Public Safety
Division of Law
RJ. Hughes Justice Complex
25 Market Street, P.O. Box 112
City, State Zip
Trenton, NJ. 08625
Executed on July 28, 2021.

^4
Name of Petitioner:
Title:
Address:
City, State, Zip:

John M. Custin
Pro Se
P.O. Box 5631
Christiansted, VI 00823

e mail: jocustl00@yahoo.com

